     Statement of Gregory H. Friedman

             Inspector General

         U.S. Department of Energy



                 Before the

Subcommittee on Oversight and Investigations

    Committee on Energy and Commerce

       U.S. House of Representatives




                                 FOR RELEASE ON DELIVERY
                                                   1:30 PM
                                             March 17, 2011
Mr. Chairman and Members of the Subcommittee:



I appreciate the opportunity to testify today on the work of the Office of Inspector General (OIG)

concerning the Department of Energy's (Department) implementation of the American Recovery

and Reinvestment Act of 2009 (Recovery Act). The intent of the Recovery Act was to quickly

stimulate the economy and create jobs while fostering an unprecedented level of accountability

and transparency. The Recovery Act also provided the Department with a platform to transform

its mission, particularly in the areas of scientific discovery, alternative energy sources and

technological innovation.



The Department received $35.2 billion under the Recovery Act for various science, energy and

environmental programs and initiatives. As of March 4, 2011, according to the Department, it

had obligated just over $33 billion, or approximately 93 percent of its Recovery Act funds.

However, of this amount, only $12.3 billion had been spent. These funds were used to: (1)

provide financial assistance awards, and (2) accelerate the work of the Department's existing

facilities management contractors. The obligations and spending, broken down by programmatic

area, include:

                               Recovery Act Funding ($ million)
   Program Office                                Authorized Awarded                     Spent
   Energy Efficiency and Renewable Energy            $16,666    $16,665                   $6,121
   Environmental Management                            5,989      5,988                    3,983
   Electricity Delivery and Energy Reliability         4,488      4,487                      932
   Fossil Energy                                       3,379      3,379                      178
   Loan Guarantee Programs                             2,470        424                      123
   Science                                             1,669      1,669                      905
   Advanced Research Projects Agency –Energy             387        387                       78
   Departmental Administration                           144         71                       46
   Western Area Power Administration                       10         7                        5
   Energy Information Administration                        8         8                        7
   Total                                             $35,210    $33,085                  $12,378
                                                  1
Office of Inspector General Oversight Strategy

Consistent with the objectives of the Recovery Act, my office has pursued a strategy designed to

provide the Department with the most effective oversight possible. To achieve this goal, we

implemented a multi-phased approach to evaluate Recovery Act activities, focusing on efforts to

prevent inefficient, ineffective and abusive Recovery Act expenditures. This effort required a

major commitment of OIG audit, inspection and investigative resources. In this pursuit, since

passage of the Recovery Act, the OIG has:

   •   Issued 47 audit, inspection, investigative reports covering program activities that received

       about $26 billion in Recovery Act funding (Attached to this testimony is a complete

       listing of the OIG's Recovery Act reports);

   •   Initiated over 80 Recovery Act-related criminal investigations; and,

   •   Conducted 258 Fraud Awareness Briefings for nearly 15,000 Federal, contractor, state

       and other officials.

Our work resulted in improvements in the management of Recovery Act-supported programs,

including the development and application of safeguards designed to ensure transparency and

accountability.



Preventative Efforts

Within weeks of enactment, the OIG launched efforts to assist the Department with its

implementation of the Recovery Act. Our work in this area involved:

   •   Early assessments designed to help Departmental officials move quickly to address and

       correct problems with control structures and execution by grantees and others. In

       particular:


                                                2
       1. We communicated lessons learned during prior audits of contracts and grants in a

           report to the Department. Specifically, we identified challenges that the

           Department encountered in administering grants and contracts, and identified

           opportunities to avoid similar problems. We pointed out, for example, that

           officials had not always adequately focused on evaluating the financial and

           business viability of projects funded through financial assistance awards. We

           suggested that the Department develop safeguards to ensure that financial and

           business risks were adequately assessed and monitored throughout the life-cycle

           of projects.

       2. We also reviewed the Department's risk identification process and the efficacy of

           planned mitigation strategies. As a result of this effort, we recommended that the

           Department improve a number of financial and management safeguards. Many of

           our recommendations were made on a real-time basis during the course of the

           audit and, to its credit, were immediately incorporated in the Department's

           approach.

•   We provided over 250 Fraud Awareness Briefings to nearly 15,000 Recovery Act

    Federal, state and local oversight personnel as well as private sector recipients. During

    these briefings, participants were: (1) informed of common fraud schemes; (2) advised

    on specific vulnerabilities within the programs, contracts, and grants; and, (3) provided

    information on the best avenues to report concerns regarding potential fraud. All of these

    actions were designed to prevent and detect fraud. In this regard, we have seen a direct

    nexus between the Fraud Awareness Briefings and the reporting of fraud allegations.




                                             3
Audit and Inspection Oversight

We concentrated on high-risk areas as we evaluated Recovery Act efforts. This enabled us to

identify a number of needed improvements in functions and programs directly impacted by the

Recovery Act. For example:

   •   The OIG assessed the adequacy of the Department's acquisition workforce staffing levels.

       We concluded that the size and skill mix of the staff, then in place, was not adequate to

       meet the increased demands of the Recovery Act.

   •   Our audit staff evaluated the Department's performance management, accounting and

       reporting, and data quality assurance systems. We found that Department had not tested

       to ensure that systems were capable of handling Recovery Act volume increases and that

       important cyber security requirements had not been incorporated in grants transaction and

       reporting systems.

    • We evaluated aspects of the Department's program to weatherize homes of low-income

       families, a $5 billion Recovery Act initiative. Our evaluation identified significant

       problems with workmanship quality, cost controls, and performance monitoring of

       grantees and contractors. Illustrative of these problems, in one State, 12 of the 15

       weatherized homes we visited failed inspections because of substandard workmanship.

       This included health and safety issues. We also found that one funding recipient in that

       State had not always ensured that home improvement material costs were reasonable. In

       fact, Recovery Act funds were used to purchase common items such as smoke alarms,

       thermostats, and fire extinguishers at costs exceeding retail by as much as 200 percent.

       To date, we have issued 8 reports on the Weatherization Program covering 5 states and

       we have ongoing work in 10 jurisdictions.


                                                4
•   Our reviews found significant delays in the pace at which Recovery Act funds had been

    expended by grant and other financial assistance recipients. For example, in our reviews

    of the State Energy Program and Energy Efficiency and Conservation Block Grants,

    programs that were allocated over $6.2 billion, we determined that these efforts had not

    achieved their intended stimulative effect because funds, although deployed, were not

    actually being spent. Our evaluation established that the slow expenditure rates were

    attributable, in large part, to the fact that these programs were much more complex than

    originally anticipated. Most importantly, we found that implementation challenges

    resulting from mandatory requirements established under the Recovery Act, such as the

    Davis-Bacon Act of 1931, a Recovery Act specific Buy America provision, the National

    Environment Policy Act and the National Historic Preservation Act of 1966, led to a

    number of significant delays. At the time of our initial examinations, over a year after the

    Recovery Act had been enacted, actual expenditures amounted to only a small percentage

    of available funds. Even today, 2 years since enactment, the Department reports that only

    about 33 percent of all Recovery Act funds had been spent by state and local

    governments to improve energy efficient and conservations within their communities.

    We have to date issued five reports on State Energy Formula Grants covering four states

    and have ongoing work in another six states. We are currently working in three states at

    the grant recipient level on the Energy Efficiency and Conservation Block Grants

    Program.

•   In a recent report, our review of the Loan Guarantee Program found that the Department

    had not devoted sufficient attention to ensuring that the resolution and mitigation

    strategies for identified loan risks were adequately documented. This program, designed

    to encourage the development of innovative technologies to help address the Nation's
                                             5
       energy challenges, is on a path to provide as much as $71 billion in loan guarantees. The

       Program received $2.4 billion in Recovery Act funds to support loan guarantee efforts.

       We recommended a number of improvements designed to provide transparency and

       accountability by properly recording and archiving all material information developed

       during the due diligence process in a centralized, readily accessible system of records.

   •   We reviewed the approximately $7.6 billion in Recovery Act funds provided to the

       Department's established facilities management contractors, funds largely designated for

       environmental remediation and scientific activities. Our reviews found that, for the most

       part, contractors included in our reviews had complied with key Recovery Act

       requirements. However, we have found improvements are possible. For example, one

       audit concluded that in expending Recovery Act funds the Department adopted an

       approach to waste processing at the Department's Hanford Facility in Washington State

       that would have cost about $25 million more than necessary. Although it disagreed with

       our cost estimates, management agreed with our recommendation to fully analyze the

       cost implications of processing the waste stream we reviewed at Hanford. To date, we

       have issued 12 reports on Office of Environmental Management and Office of Science

       projects funded by the Recovery Act. We also have seven reviews in the Science and

       Environmental areas in progress.



Investigative Matters

We currently have 64 open investigations associated with the Recovery Act, nearly 25 percent of

our current case load. Schemes under investigation include the submission of false information

in applications for funding, fraudulent claims for rebates, claims for unallowable or unauthorized

expenses, the directing of contracts and grants to friends and family, weatherization fraud to
                                                 6
include mischarging, and other attempts to fraudulently obtain Recovery Act funds. To date, our

Recovery Act-related investigations have resulted in over $1 million in monetary recoveries and

two criminal prosecutions. Further, nearly 20 percent of our other ongoing Recovery Act

investigations have been accepted for either criminal or civil prosecutive action. And, Recovery

Act funds, in large measure, are just being spent. Thus, we expect that our efforts in this area

will continue for some time.



Recovery Act Implementation and Performance Observations

In terms of Recovery Act funding, the Department was one of the largest recipients in the

Federal Government. To put this in perspective, the $35 billion in Recovery Act funding the

Department received exceeded its annual budget of about $28 billion. As structured, the

Recovery Act was designed both to expand and supplement long-standing programs with which

the Department and other stakeholders had a great deal of experience, such as the Weatherization

Program, which had been in effect since the late 1970's. In addition, Recovery Act funds were

used to create what were essentially new Departmental efforts, including the Energy Efficiency

and Conservation Block Grant Program. This was to be accomplished expeditiously so as to

stimulate the economy and create new jobs, all in an atmosphere of transparency and

accountability.



Even under ideal circumstances, these were challenging goals. We noted during our work that

there was what we considered to be an intense, good faith effort to implement and execute the

various aspects of the Department's Recovery Act responsibilities in accordance with the Act's

guidelines. These efforts notwithstanding, we had a number of overarching observations which

we believe should be considered if similar programs are proposed:
                                                 7
1. The pressure of achieving expeditious program implementation and execution, and doing

   so with great emphasis on transparency and accountability, placed an enormous strain on

   the Department's personnel and infrastructure.

2. The challenges associated with the Department's program implementation and execution

   efforts were complicated by the nature of the bureaucracy in which it operates,

   specifically the diverse, complex and often asymmetrical set of stakeholders which play

   an integral role in this process. This includes literally thousands of state and local

   jurisdictions, community action organizations in every state and territory, universities and

   colleges, contractors and other private sector entities.

3. The concept of "shovel ready" projects became a Recovery Act symbol of expeditiously

   stimulating the economy and creating jobs. Yet, the Department programs which

   benefitted from the huge influx of Recovery Act funds, as it turned out, required

   extensive advance planning, organizational enhancements, additional staffing and staff

   training. This we found was true at the Federal, state and local levels.

4. The Federal, state and local government infrastructures were, simply put, overwhelmed.

   In several states, the very personnel who were charged with implementing the Recovery

   Act's provisions had been furloughed due to the economic situations. Ironically, this

   delayed timely allocation and expenditures of funds intended to boost the U.S. economy.

5. The pace of actual expenditures was significantly slowed because of the time needed to

   understand and address specific requirements of the Recovery Act.

6. At the initiation of the Recovery Act, fund recipients expressed their concern with what

   they described as overly complex, complicated and burdensome reporting requirements.




                                             8
In summary, a combination of massive funding, high expectations and inadequate infrastructure

resulted, at times, in less than optimal performance.



Noteworthy Accomplishments

We found a number of success stories which, in our judgment, reflected well on the Department's

Recovery Act efforts. For example:

   •   The Department's management and operating contractors, for the most part, complied

       with Recovery Act requirements relating to transparency and accountability;

   •   The Department increased its workforce and redirected personnel to improve its

       monitoring of financial assistance agreements; and,

   •   Finally, the Department improved information technology systems for tracking financial

       information and project performance.



Path Forward

Large portions of the funds allocated to the Recovery Act have yet to be spent. Accordingly, we

have ongoing and planned audits and inspections of Recovery Act funds in a number of high-risk

areas such as Advanced Research Projects Agency-Energy, Electricity Delivery and Energy

Reliability, and Renewable Energy Programs. Additionally, our investigative efforts continue.



We are also in the process of evaluating contingency plans to address problems with

transitioning to a post-Recovery Act funding posture. Of the most immediate concern is how the

Department plans to deal with a significant downsizing of the contractor workforce.




                                                 9
Mr. Chairman, this concludes my statement and I would be pleased to answer any questions that

the Subcommittee may have.




                                             10
                                                                               Attachment

                    Department of Energy Office of Inspector General
                                 Recovery Act Reports

      Title                                        Report Number       Date Issued
1.    Recovery Act Funded Projects at the SLAC     OAS-RA-L-11-05      2011-03-08
      National Accelerator Laboratory
2.    The Department of Energy's Loan Guarantee    IG-0849             2011-03-03
      Program for Clean Energy Technologies
3.    The Department's Infrastructure              OAS-RA-L-11-04      2011-03-02
      Modernization Projects under the American
      Recovery and Reinvestment Act of 2009
4.    Management of the Tank Farm Recovery Act     OAS-RA-L-11-03      2011-02-09
      Infrastructure Upgrades Project
5.    The Department of Energy's Weatherization    OAS-RA-11-04        2011-02-01
      Assistance Program under the American
      Recovery and Reinvestment Act for the
      Capital Area Community Action Agency –
      Agreed-Upon Procedures
6.    Audit of Environmental Cleanup Projects      OAS-RA-L-11-02      2010-12-20
      Funded by the Recovery Act at the Y-12
      National Security Complex
7.    Management Alert on the State Energy         INV-RA-11-01        2010-12-03
      Efficient Appliance Rebate Program
8.    The Department of Energy's Weatherization    OAS-RA-11-03        2010-11-30
      Assistance Program under the American
      Recovery and Reinvestment Act for the City
      of Phoenix – Agreed-Upon Procedures
9.    Management of the Plutonium Finishing        OAS-RA-L-11-01      2010-11-10
      Plant Closure Project
10.   Selected Aspects of the Commonwealth of      OAS-RA-11-02        2010-11-02
      Pennsylvania's Efforts to Implement the
      American Recovery and Reinvestment Act
      Weatherization Assistance Program
11.   The State of Illinois Weatherization         OAS-RA-11-01        2010-10-14
      Assistance Program
12.   Management Controls over the Department of   OAS-RA-10-18        2010-09-29
      Energy's American Recovery and
      Reinvestment Act – Michigan State Energy
      Program
13.   Review of Allegations Regarding Hiring and   OAS-SR-10-04        2010-09-22
      Contracting in the Office of Energy
      Efficiency and Renewable Energy
14.   Status Report: The Department of Energy's    OAS-RA-10-17        2010-09-21
      State Energy Program Formula Grants
      Awarded under the American Recovery and
      Reinvestment Act


                                           11
                                                                              Attachment

                   Department of Energy Office of Inspector General
                                Recovery Act Reports


15. The Department of Energy's American            OAS-RA-L-10-06     2010-09-15
    Recovery and Reinvestment Act - Georgia
    State Energy Program
16. Office of Science's Energy Frontier Research   OAS-RA-L-10-09     2010-08-27
    Centers
17. Decommissioning and Demolition Activities      OAS-RA-L-10-05     2010-08-12
    at Office of Science Sites
18. The Department of Energy's Implementation      OAS-RA-10-16       2010-08-11
    of the Energy Efficiency and Conservation
    Block Grant Program under the Recovery and
    Reinvestment Act: A Status Report
19. Review of the Department's of Energy's Plan    OAS-RA-10-15       2010-08-04
    for Obligating Remaining Recovery Act
    Contract and Grant Funding
20. Management Controls over the Development       OAS-RA-10-14       2010-07-22
    and Implementation of the Office of Energy
    Efficiency and Renewable Energy's
    Performance and Accountability for Grants in
    Energy System"
21. The Department of Energy's Use of the          OAS-RA-10-13       2010-06-11
    Weatherization Assistance Program Formula
    for Allocating Funds Under the American
    Recovery and Reinvestment Act
22. The Department of Energy's American            OAS-RA-10-12       2010-06-07
    Recovery and Reinvestment Act- Florida
    State Energy Program
23. Management Controls over the                   OAS-RA-10-11       2010-05-26
    Commonwealth of Virginia's Efforts to
    Implement the American Recovery and
    Reinvestment Act Weatherization Assistance
    Program
24. Waste Processing and Recovery Act              OAS-RA-10-10       2010-05-25
    Acceleration Efforts for Contact-Handled
    Transuranic Waste at the Hanford Site
25. Management Controls over the Department of     OAS-RA-10-09       2010-05-03
    Energy's American Recovery and
    Reinvestment Act- Louisiana State Energy
    Program
26. Progress in Implementing the Advanced          OAS-RA-L-10-04     2010-04-27
    Batteries and Hybrid Components Program
    under the American Recovery and
    Reinvestment Act


                                           12
                                                                               Attachment

                    Department of Energy Office of Inspector General
                                 Recovery Act Reports


27. The Department of Energy's Program to          OAS-RA-10-08        2010-04-27
    Assist Federal Buyers in the Purchasing of
    Energy Efficient Products
28. Moab Mill Tailings Cleanup Project             OAS-RA-L-10-03      2010-04-23
29. Fermi National Accelerator Laboratory's        OAS-RA-L-10-02      2010-04-16
    NOvA Project

30. Management Alert on Environmental              OAS-RA-10-07        2010-04-09
    Management's Select Strategy for Disposition
    of Savannah River Site Depleted Uranium
    Oxides
31. The Department of Energy's Management of       OAS-RA-L-10-01      2010-04-06
    the NSLS-II Project
32. Accounting and Reporting for the American      OAS-RA-10-06        2010-04-01
    Recovery and Reinvestment Act by the
    Department of Energy's Funding Recipients
33. Management Controls over the Department's      OAS-RA-10-05        2010-03-25
    WinSAGA System for Energy Grants
    Management Under the Recovery Act
34. Progress in Implementing the Department of     OAS-RA-10-04        2010-02-19
    Energy's Weatherization Assistance Program
    under the American Recovery and
    Reinvestment Act
35. Review of Allegations Involving Potential      S09IS024            2009-12-29
    Misconduct by a Senior Office of
    Environmental Management Official
36. Management Challenges at the Department of     IG-0832             2009-12-11
    Energy
37. Selected Department of Energy Program          OAS-RA-10-03        2009-12-07
    Efforts to Implement the American Recovery
    and Reinvestment Act
38. Management Alert on the Department's           OAS-RA-10-02        2009-12-03
    Monitoring of the Weatherization Assistance
    Program in the State of Illinois
39. The Department of Energy's Quality             OAS-RA-10-01        2009-10-21
    Assurance Process for Prime Recipients'
    Reporting for the American Recovery and
    Reinvestment Act of 2009
40. The Department's Management of the             IG-0827             2009-10-14
    ENERGY STAR Program
41. The Department of Energy's Management of       IG-0825             2009-09-30
    Contractor Fines, Penalties and Legal Costs


                                             13
                                                                              Attachment

                   Department of Energy Office of Inspector General
                                Recovery Act Reports


42. Bonneville Power Administration's            IG-0824              2009-09-29
    Acquisition of Transmission-Related
    Materials and Equipment
43. Management of Energy Savings Performance     IG-0822              2009-09-10
    Contract Delivery Orders at the Department
    of Energy
44. Department of Energy's Efforts to Meet       OAS-RA-09-04         2009-09-04
    Accountability and Performance Reporting
    Objectives of the American Recovery and
    Reinvestment Act

45. Department of Energy Efforts to Manage       OAS-RA-09-03         2009-05-27
    Information Technology Resources in an
    Energy-Efficient and Environmentally
    Responsible Manner
46. The Department of Energy's Acquisition       IG-RA-09-02          2009-03-30
    Workforce and its Impact on Implementation
    of the American Recovery and Reinvestment
    Act of 2009
47. The American Recovery and Reinvestment       OAS-RA-09-01         2009-03-20
    Act at the Department of Energy




                                          14
